i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Circuit
Court of Appeals for the Sixth Circuit
(March 2, 2021)
Appendix B Order Denying Rehearing of the
United States Circuit Court of
Appeals for the Sixth Circuit (March
18, 2021)
Appendix C Opinion and Order of the United
States District Court for the Western
District of Michigan (July 13, 2020)

Appendix A
Opinion in the United States Circuit Court of Appeals for the Sixth Circuit
(March 2, 2021)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 1

(2 of 8)

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0111n.06
Case No. 20-1764
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CHERYL FRITZE,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellant,
v.
NEXSTAR BROADCASTING, INC.,
Defendant-Appellee.

FILED

Mar 02, 2021
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

BEFORE: GILMAN, GIBBONS, and SUTTON, Circuit Judges.
SUTTON, Circuit Judge. Cheryl Fritze worked as an editor for a broadcast news station.
The station fired her for creating a disruptive work environment. That prompted this lawsuit, in
which Fritze claims that the station violated the Michigan Whistleblowers’ Protection Act by
punishing her for complaining about inadequate investigations of sexual harassment. The district
court ruled as a matter of law that Fritze failed to satisfy the elements of a claim under the Act.
We agree and affirm.
I.
For decades, local television station WLNS has broadcast in Lansing, Michigan. Jamshid
Sardar has served as the station’s News Director for 12 years. In 2013, Sardar offered, and Cheryl
Fritze accepted, a job as the newsroom’s Assignment Editor.

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 2

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
In that capacity, Fritze managed the newsroom’s workflow, “assign[ing] reporters and
photographers to the daily duties” of putting stories together. R.41-4 at 5. Fritze described her
first year at the station as “pleasant.” Id. at 7.
After that, tension between her and Sardar emerged. Private disagreements became public
ones as their feud “spilled out on[to] the newsroom floor.” Id. at 17. On one occasion, after
objecting to Sardar’s decision to run a story, Fritze proclaimed in the middle of the newsroom that
she was “done,” and walked out of the room. Id.
An ownership change added more tension. Early in 2017, Nexstar Media Broadcasting
acquired WLNS. Fritze was not happy about the change. In a highly public setting, she described
Nexstar as a company in which “all they do is come in and chop off all managers.” R.41-13 at 20.
In the spring of 2017, Fritze filed a complaint with human resources alleging that Sardar
“had engaged in an inappropriate sexual relationship with another female employee of WLNS” in
violation of company policy. R.48 at 5. Management started an investigation. The allegation was
never substantiated, but Sardar received a directive to review the company’s workplace policies.
A WLNS employee complained to human resources that the feud intensified after the
investigation, claiming that Fritze “hate[d]” Sardar and was “out to get” him. R.41-13 at 38.
Nexstar opened a new inquiry into Fritze and Sardar’s relationship, asking a neutral investigator
to take a “fresh” look at the situation. R.41-24 at 3. After interviewing and surveying employees
who worked directly with Fritze, the investigator recommended that Fritze “be immediately
removed from WLNS” because she had “exhibited countless acts of insubordination” and had
“issues taking direction from” Sardar. Id. at 3, 7.

2

(3 of 8)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 3

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
Nexstar did not act on the recommendation, at least not immediately. It instead appointed
an “outside mediator who had no contacts with the news industry” to work with Fritze and Sardar.
R.14-3 at 4. But that did not improve matters.
The station discharged Fritze in 2018.
Fritze filed this lawsuit in state court, alleging wrongful discharge in violation of the
Michigan Whistleblowers’ Protection Act. See Mich. Comp. Law § 15.361 et seq. Nexstar
removed the case to federal court on diversity grounds. Fritze claimed that the company fired her
for raising concerns about inadequate investigations of sexual harassment of other employees. The
district court granted Nexstar summary judgment, reasoning that Fritze failed to satisfy several
elements of a claim under the statute.
II.
The Michigan Whistleblowers’ Protection Act prohibits employers from firing an
employee “because the employee . . . reports or is about to report . . . a violation or a suspected
violation of a law . . . to a public body.” Mich. Comp. Laws § 15.362. To obtain relief, a claimant
must show (1) that she engaged in protected activity by reporting a violation of law to a public
body, (2) that the company discharged or otherwise punished her, and (3) that the protected activity
caused the employer’s action. Wurtz v. Beecher Metro. Dist., 848 N.W.2d 121, 125–26 (Mich.
2014); Debano-Griffin v. Lake County, 828 N.W.2d 634, 638 (Mich. 2013).
Fritze’s claim has several unfilled gaps. To resolve this appeal, we need to address just
two—that she did not report a “violation of a law” and did not make a report to a “public body.”
Violation of a law. Fritze did not report a “violation of a law,” to start. Such a disclosure
occurs when the employee makes “a charge of illegality against a person or entity” or tells “a
public body pertinent information related to illegality.” Rivera v. SVRC Indus., Inc., 934 N.W.2d

3

(4 of 8)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 4

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
286, 296 (Mich. Ct. App. 2019) (quotations omitted). An employer’s failure to follow internal
rules or procedures does not amount to a violation of law, see Suchodolski v. Michigan Consol.
Gas Co., 316 N.W.2d 710, 712 (Mich. 1982), unless the internal rule or regulation has been
“promulgated pursuant to the law,” Henry v. City of Detroit, 594 N.W.2d 107, 111 (Mich. Ct. App.
1999). A report that an employer failed to follow its own internal policies does not therefore
ordinarily constitute a violation of law. See Suchodolski, 316 N.W.2d at 712.
Fritze stipulated that “she was never sexually harassed.” R.48 at 5. Her complaint was
that Nexstar “was not properly investigating instances of the sexual harassment of subordinate
female employees and interns by their Nexstar managers.” R.44-1 at 3. She also looked for ways
she could “effectuate change at Nexstar (since Fritze indicated that internal reporting measures
were not working).” Id. The “Nexstar Employee Guidebook” outlines the company’s policy on
sexual harassment. R.48 at 3. The policy prohibits discrimination because of race, sex, and age,
among other categories, and it prohibits sexual harassment as well as retaliation against any
employee for raising concerns about harassment. Id. The policy also directs employees subjected
to harassment to report the conduct to (1) a supervisor, (2) human resources, or (3) a toll-free
hotline. Any such report is entitled to a response from the company.
While it no doubt serves everyone’s interests for a company to follow its workplace
policies, a company’s failure to do so does not by itself constitute a “violation of a law.” The
problem for Fritze is that Nexstar did not create its internal policies “pursuant to law of this
state . . . or the United States.” Mich. Comp. Laws § 15.362. It created them as a matter of
company governance. That does not suffice under the Act. See Suchodolski, 316 N.W.2d at 712.
Any other approach would mean that a complaint to a state agency, say the Michigan Department
of Civil Rights, about a company’s non-compliance with its own policies, as opposed to state

4

(5 of 8)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 5

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
statutes or state regulations, would suffice to trigger liability under the Act. But that’s not what
the statute says or envisions as reporting a “violation of a law.”
That Fritze was told she could “reach out to other female Nexstar employees to see what
their experiences had been relating to Nexstar’s conduct related to sexual harassment” does not
alter this conclusion. R.44-1 at 3. She wanted help “connecting the dots across the country of the
other women who were victims of sexual harassment at Nexstar stations.” R.41-4 at 40. That may
be a noble objective. But it does not amount to complaints about illegality.
A public body. Also missing from Fritze’s case is a report to a “public body.” Under the
Act, a “public body” includes state and local governments, agencies, the courts, the executive
branch, and any other Michigan “body” that “is created by state or local authority or which is
primarily funded by or through state or local authority, or any member or employee of that body.”
Mich. Comp. Laws § 15.361(d)(iv)–(vi). Public bodies do not include private companies, meaning
that a private employee’s communication with her private employer is a “nonactionable
communication.” Rivera, 934 N.W.2d at 297; see also Brown v. Mayor of Detroit, 734 N.W.2d
514, 517 (Mich. 2007); Koets v. Am. Legion, Dep’t of Michigan, No. 333347, 2017 WL 3397404,
at *6 n.3 (Mich. Ct. App. Aug. 8, 2017); Denney v. Dow Chem. Co., No. 294278, 2011 WL 92964,
at *5 (Mich. Ct. App. Jan. 11, 2011); Chang Lim v. Terumo Corp., No. 11-CV-12983, 2014 WL
1389067, at *7 (E.D. Mich. Apr. 9, 2014).
That means that Fritze’s reports to Nexstar and its employees do not qualify as reports to a
“public body.” Nexstar and its affiliate WLNS are private corporations. Her coworkers were
private, not government, employees.

Internal reports of sexual harassment and workplace

misconduct do not satisfy this element of the claim.

5

(6 of 8)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 6

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
That Fritze spoke to an attorney, but did not hire him, does not fill this gap. A licensed and
hired Michigan attorney, it is true, was treated as a “public body” by one Michigan intermediate
court opinion. McNeil-Marks v. Midmichigan Med. Ctr.-Gratiot, 891 N.W.2d 528, 538 (Mich. Ct.
App. 2016). Subsequent Michigan decisions appear to have cabined that decision. Not “all
communications with attorneys,” one has said, “categorically constitute reports to a public body.”
McNeill-Marks v. MidMichigan Med. Ctr.-Gratiot, No. 348987, 2020 WL 2610106, at *10 (Mich.
Ct. App. May 21, 2020) (quotations omitted). Courts “must engage in a deeper analysis of the
particular facts and circumstances” of the plaintiff’s “communication” with the attorney to see if
it meets the test. Id.; Rivera, 934 N.W.2d at 295. The analysis, another court has said, must include
a search for “record evidence of an attorney-client relationship” or evidence that the attorney
“perform[ed] specific legal work” for the plaintiff. Newton v. Mariners Inn, No. 332498, 2017
WL 5759949, at *7 (Mich. Ct. App. Nov. 28, 2017); see also Shephard v. Benevis, LLC, No.
350164, 2021 WL 70642, at *4 (Mich. Ct. App. Jan. 7, 2021); Brooks v. Genesee County, No.
330119, 2017 WL 2988838, at *3 (Mich. Ct. App. July 13, 2017); Yurk v. Application Software
Tech. Corp., No. 2:15-cv-13962, 2018 WL 453889, at *9 (E.D. Mich. Jan. 17, 2018).
Fritze’s discussion with attorney David Mittleman does not qualify as a report to a “public
body.” Fritze had one meeting with Mittleman, and she did not retain his services or sign an
“engagement letter[]” to hire him. R.41-4 at 35. Nor did Mittleman perform any legal work for
Fritze. Even if an attorney in some settings might qualify as a public body under Michigan law,
McNeil-Marks, 891 N.W.2d at 538, this relationship never materialized to that level.
That Mittleman suggested that Fritze contact other female Nexstar employees about their
experience with sexual harassment at the company does not alter this conclusion. It remains
undisputed that Mittleman never formed an attorney-client relationship with Fritze and never

6

(7 of 8)

Case: 20-1764

Document: 22-2

Filed: 03/02/2021

Page: 7

Case No. 20-1764, Fritze v. Nexstar Broadcasting, Inc.
performed any legal work on her behalf. Even if he offered suggestions of this sort, that does not
make him a “public body.” See Rivera, 934 N.W.2d at 295.
We affirm.

7

(8 of 8)

Appendix B
Order Denying Rehearing of the United States Circuit Court of Appeals for the
Sixth Circuit
(March 18, 2021)

Case: 20-1764

Document: 26-2

Filed: 03/18/2021

Page: 1

Case No. 20-1764
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
CHERYL FRITZE
Plaintiff - Appellant
v.
NEXSTAR BROADCASTING, INC.; NEXSTAR MEDIA GROUP, INC., dba WLNS
Defendants - Appellees

BEFORE: GILMAN, GIBBONS, SUTTON, Circuit Judges.
Upon consideration of the petition for rehearing filed by the appellant,
It is ORDERED that the petition for rehearing be, and it hereby is, DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: March 18, 2021

___________________________________

(2 of 2)

Appendix C
Opinion and Order of the United States District Court for the Western District of
Michigan
(July 13, 2020)

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.757 Filed 07/13/20 Page 1 of 16

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CHERYL FRITZE,
Plaintiff,
Case No. 1:18-cv-1313
v.
HON. JANET T. NEFF
NEXSTAR BROADCASTING, INC. and
NEXSTAR MEDIA GROUP, INC.,
Defendants.

____________________________/
OPINION AND ORDER
This removed diversity case is before the Court on Defendants’ Motion for Summary
Judgment (ECF No. 40). Plaintiff filed a response in opposition to their motion (ECF No. 44), and
Defendants filed a reply to the response (ECF No. 46).

Having considered the parties’

submissions, the Court concludes that oral argument is unnecessary to resolve the issues presented.
See W.D. Mich. LCivR 7.2(d). For the reasons that follow, the Court grants Defendants’ motion.
I.
A.

BACKGROUND
Factual Background

On December 16, 2013, Plaintiff was hired as an Assignment Editor in the News
Department of the television station WLNS, which is located in Lansing, Michigan (Jt. Stat. 1 ¶ 6).
At the time of Plaintiff’s hire, the WLNS News Department was managed by a News Director,
Jamshid Sardar (id. ¶ 7). WLNS also employed an Assistant News Director, Norman Stangland,

1

The parties filed a “Joint Statement of Uncontested Material Facts” (Jt. Stat.) (ECF No. 48),
upon which this Court relies for resolution of this motion unless otherwise indicated.

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.758 Filed 07/13/20 Page 2 of 16

who carried out various oversight responsibilities and served as the News Director in Sardar’s
absence (id. ¶ 8).
Plaintiff alleges that in 2014, she initiated a complaint, alleging that a news anchor, Evan
Pinsonnault, engaged in sexual harassment of other female employees (Compl. [ECF No. 1-2] ¶¶
21-26). Plaintiff alleges that after refusing to take any action for months, management finally
severed Pinsonnault’s employment “but then started an adversarial relationship with Plaintiff” (id.
¶ 27). Plaintiff alleges that she also reported to the station manager an “incident involv[ing] a
multitude of degrading behaviors surrounding the reporting on the ‘Fifty Shades of Grey’ book
series” (id. ¶ 29). Plaintiff testified that she herself was never sexually harassed at work (Jt. Stat.
¶¶ 26 & 35).
On November 20, 2015, during a meeting among newsroom staff, Plaintiff “angrily
disagreed with Sardar’s editorial decision to run a story,” declared “I am done,” and left the
newsroom (Jt. Stat. ¶ 23).

WLNS Station Manager Robert Simone met with Plaintiff on

November 23, 2015, following the incident (id.). On or about December 2, 2015, Plaintiff received
a performance evaluation encompassing the time period of January 1, 2015 through December 31,
2015, in which Sardar rated her overall performance as “meets expectations” (id. ¶ 24). However,
regarding “communication,” in particular, he rated her performance as “unsatisfactory,” the lowest
rating, noting that “[m]any concerns expressed, be careful about tone” (Ex. 6, ECF No. 41-7 at
PageID.451). The Human Resources/Business Administrator documented two incidents in 2015
about Plaintiff’s disruptive actions/words in the newsroom (ECF No. 41-13 at PageID.481 & 483).
The following year, in her performance evaluation encompassing the period of time from
January 1, 2016 through December 31, 2016, Sardar again rated Plaintiff’s overall performance as
“meets expectations” (Jt. Stat. ¶ 25). And Sardar again noted that “[t]here have been concerns and

2

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.759 Filed 07/13/20 Page 3 of 16

complaints by several people in the newsroom about Cheryl’s comments on several topics” (Ex.
7, ECF No. 41-8 at PageID.455). Additional work performance incidents were documented in
2016 (ECF No. 41-13 at PageID.493 & 495).
On or around January 17, 2017, Nexstar Media Group, Inc. (NMG) acquired WLNS (Jt.
Stat. ¶¶ 9, 11, 22). Perry Sook is NMG’s founder Chairman, President and Chief Executive Officer
of NMG (id. ¶ 2). Terri Bush is NMG’s Associate General Counsel and Senior Vice President of
Human Resources, and, in that capacity, she oversees investigations into alleged misconduct by
employees (id. ¶ 5).
Nexstar Broadcasting, Inc. (NBI) is a wholly-owned subsidiary of NMG, and, following
the acquisition, Plaintiff became an employee of NBI, not NMG (Jt. Stat. ¶¶ 9, 11, 22). NBI is one
of the largest broadcast groups in the United States in terms of the number of owned or operated
television stations/markets and expected total annual revenue (id. ¶ 3). Plaintiff continued to serve
as WLNS’s Assignment Editor, without any change to her job responsibilities (id. ¶ 12).
NBI/WLNS employed Plaintiff on an “at will” basis (id. ¶ 10).
A handbook called the “Nexstar Employee Guidebook” describes the workplace
employment policies at WLNS (Jt. Stat. ¶ 13). The Nexstar Employee Guidebook includes an
express policy and affirmation that prohibits discrimination against any condition of employment
because of race, color, national origin, sex, religion, age, genetic information, disability, veteran
status or any other status protected by applicable law (id. ¶ 14). The Nexstar Employee Guidebook
also contains a policy prohibiting sexual harassment and inappropriate sexual conduct and a
statement of the company’s policy prohibiting retaliation against any employee who either
complains of harassment or discriminatory treatment in violation of the company’s policies or who
assists in an investigation of a complaint (id. ¶¶ 15-16).

3

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.760 Filed 07/13/20 Page 4 of 16

Per the “Open Door Policy,” employees who believe they are being subjected to unlawful
harassment or discrimination are instructed to report their complaints to (1) their supervisor or
other manager; (2) Human Resources; or (3) a toll-free hotline, which is reviewed on a daily basis
(Jt. Stat. ¶ 17). Employees are also informed that they may elevate their concerns regarding
possible harassment or discrimination to the Vice President of Human Resources (id.). The
Nexstar Employee Guidebook includes an overview of the company’s performance management
process and contains a policy that addresses the content of employee evaluations (id. ¶ 18). Last,
a “Business Conduct Policy” requires all employees to conduct themselves to the highest ethical
standards in all employment related endeavors and to show respect to co-workers and customers
at all times (id. ¶ 19).
Plaintiff reviewed the Nexstar Employee Guidebook and acknowledged receiving a copy
of the handbook on January 23, 2017 (Jt. Stat. ¶ 20). WLNS News Director Sardar prepared
guidelines that he expected news department employees to follow in performing various news
gathering and reporting activities (id. ¶ 21). Plaintiff testified that she did not consider Sardar’s
guidelines to be a matter of federal or Michigan law (id.).
In March 2017, Plaintiff spoke with Bush regarding her “concerns” (Jt. Stat. ¶ 5), to “giv[e]
her the history of events and [Sardar’s] response to those events” (Pl. Dep. at 116, ECF No. 41-4
at PageID.420; Pl. Dep. at 23, ECF No. 41-4 at PageID.428). Plaintiff conceded that she was never
sexually harassed and claimed that other WLNS newsroom personnel, both male and female,
shared her view that Sardar’s conduct was “disrespectful,” “rude or abrupt,” and that Sardar was a
“bully” (Jt. Stat. ¶¶ 26, 35). Bush directed the investigations into Plaintiff’s allegations (id. ¶ 5).
In May 2017, Plaintiff filed a complaint with Bush, alleging that Sardar had engaged in an
inappropriate sexual relationship with another female employee of WLNS, who was not assigned

4

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.761 Filed 07/13/20 Page 5 of 16

to the News Department (Jt. Stat. ¶ 27). Bush contacted Simone on May 23, 2017 to inform him
of Plaintiff’s complaint and that an investigation was underway (id. ¶ 28). Correspondence
regarding the conclusion of the investigation was prepared by Susan Ellenberg, NMG’s Regional
Human Resources Business Manager, whose responsibilities included assisting Bush in
investigations regarding alleged harassment and other policy violations within her region (id. ¶ 29).
This correspondence was hand delivered to her by Simone (id.). As a result of that investigation,
Sardar was issued verbal guidance regarding interactions with female employees, reminded of
Defendants’ policies regarding romantic relationships between supervisors and coworkers, and
informed that no meetings with Plaintiff should take place without Assistant News Director
Stangland as a witness (id. ¶ 30).
On July 5, 2017, Plaintiff emailed Simone complaining that Sardar had posted an article to
WLNS’ Facebook page that had “no journalistic standards” (Jt. Stat. ¶ 31). Within four minutes,
Simone had reviewed the post and directed that the post be deleted (id.).
Plaintiff subsequently met with an “acquaintance,” David Mittleman, a practicing attorney
whom Plaintiff believed could “help [her] in reaching out, trying to help the other women in
Nexstar stations across the country who are dealing with sexual harassment issues as well” (Pl.
Dep. at 27, ECF No. 41-4 at PageID.429). Mittleman placed the meeting as occurring on
December 4, 2017 (Mittleman Decl., ECF No. 44-1 at PageID.614). He indicated that Plaintiff
“came to see [him] to discuss concerns she had that her employer, Nexstar Broadcasting, was not
properly investigating instances of the sexual harassment of subordinate female employees and
interns by their Nexstar managers” and that they discussed that “the first thing she should do to
effectuate change at Nexstar (since Fritze indicated that internal reporting measures were not
working) would be for Fritze to reach out to other female Nexstar employees to see what their

5

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.762 Filed 07/13/20 Page 6 of 16

experiences had been relating to Nexstar's conduct related to sexual harassment and
discrimination” (id.). Plaintiff did not retain Mittleman (Pl. Dep. at 27, ECF No. 41-4 at
PageID.429). Nor did Mittleman indicate that he was going to file a lawsuit on her behalf (id. at
63, PageID.435).
During 2017 and 2018, numerous additional instances were documented regarding
Plaintiff’s performance at work, including: a “workplace disruption” incident documented on
February 1, 2018, when an employee complained that Plaintiff was undermining leadership in the
newsroom; and an incident when Plaintiff complained on March 1, 2018 that Sardar was “singling”
her out and “harassing” her (ECF No. 41-13 at PageID.502, 505, 511; ECF No. 41-25 at
PageID.561; ECF No. 41-26 at PageID.571). In April 2018, Sardar and Plaintiff attempted
mediation (Pl. Dep. at 133-34, ECF No. 41-4 at PageID.421-422). According to Station Manager
Simone, following Plaintiff’s refusal to continue to attend mediation sessions, he determined that
Plaintiff had become “unmanageable” and made the decision to discharge her (Simone Decl., ECF
No. 14-3 at PageID.102). Plaintiff’s employment was terminated on May 14, 2018 (Jt. Stat. ¶ 36).
B.

Procedural Posture

On August 9, 2018, Plaintiff initiated this case in state court, alleging a single count titled
“Wrongful Discharge against Public Policy and in Violation of the Michigan Whistleblower
Protection Statute” (Compl., ECF No. 1-2 at PageID.13). Plaintiff alleges that she performed
“outstanding work … throughout her employment, but the severe sexually inappropriate
misconduct of male employees eroded Plaintiff’s relationship with Defendant as management
decided to protect the male employees” (id. ¶ 16). Plaintiff alleges that Defendants “attempted to
silence Plaintiff and future protesters of sexual abuses by terminating Plaintiff’s employment” (id.
¶ 49).

6

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.763 Filed 07/13/20 Page 7 of 16

In November 2018, Defendants removed the case to this Court based on diversity
jurisdiction 2 and filed their Answer. A Case Management Order was issued on January 24, 2019.
In July 2019, the parties attempted to mediate a resolution of their case, which was unsuccessful.
Following the close of discovery, the Court issued a briefing schedule on Defendants’ proposed
dispositive motion (ECF No. 33). The motion is fully briefed and ripe for decision.
II.
A.

ANALYSIS
Motion Standard

Summary judgment is proper “if the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” FED. R. CIV. P. 56(a).
The court must consider the evidence and all reasonable inferences in favor of the nonmoving
party. Burgess v. Fischer, 735 F.3d 462, 471 (6th Cir. 2013); U.S. S.E.C. v. Sierra Brokerage
Servs., Inc., 712 F.3d 321, 327 (6th Cir. 2013). The moving party has the initial burden of showing
the absence of a genuine issue of material fact. Jakubowski v. Christ Hosp., Inc., 627 F.3d 195,
200 (6th Cir. 2010). The burden then “shifts to the nonmoving party, who must present some
‘specific facts showing that there is a genuine issue for trial.’” Id. (quoting Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986)).
The function of the district court “is not to weigh the evidence and determine the truth of
the matter but to determine whether there is a genuine issue for trial.” Resolution Trust Corp. v.
Myers, 9 F.3d 1548 (6th Cir. 1993) (citing Anderson, 477 U.S. at 249). “A dispute is genuine if
there is evidence ‘upon which a reasonable jury could return a verdict in favor of the non-moving
party.’ A factual dispute is material only if it could affect the outcome of the suit under the

2

Defendants represented that Plaintiff is a citizen of Michigan and Defendants are citizens of
Delaware (ECF No. 1, Notice ¶ 1; see also Compl. [ECF No. 1-2] ¶ 1 and Jt. Stat. ¶ 4).
7

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.764 Filed 07/13/20 Page 8 of 16

governing law.” Smith v. Erie Cty. Sheriff’s Dep’t, 603 F. App’x 414, 418 (6th Cir. 2015) (citation
omitted). The parties do not dispute that Michigan law governs Plaintiff’s claims in this diversity
case. “The ultimate question is ‘whether the evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that one party must prevail as a matter of law.’”
Back v. Nestlé USA, Inc., 694 F.3d 571, 575 (6th Cir. 2012) (quoting Anderson, 477 U.S. at 25152).
B.
1.

Discussion

Defendant Nexstar Media Group, Inc. (NMG)
First, as a threshold matter, Defendants assert in one sentence in the Introduction to their

brief that this Court should dismiss Defendant NMG from this case because NMG did not employ
Plaintiff (ECF No. 41 at PageID.283). Plaintiff does not address this topic in her response (ECF
No. 44), and Defendants also did not raise it again in their reply brief (ECF No. 46). Given the
Court’s decision that Defendants are entitled to judgment as a matter of law on Plaintiff’s claims,
the Court declines to address this argument.
2.

Plaintiff’s Claim for Retaliatory Discharge in Violation of Michigan Public Policy
Next, Defendants argue that Plaintiff may not sustain a cause of action for wrongful

discharge in violation of public policy because (1) the Whistleblowers’ Protection Act, MICH.
COMP. LAWS § 15.361 et seq., already confers upon an alleged victim of retaliation the right to
sue; (2) a public policy cause of action is not available for internal reports; and (3) Plaintiff was
not asked to and did not refuse to violate any law (ECF No. 41 at PageID.300-302).
Plaintiff did not address any public policy claim in her response to Defendants’ motion
(ECF No. 44).
Defendants’ argument for dismissal of Plaintiff’s public policy claim has merit.

8

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.765 Filed 07/13/20 Page 9 of 16

To the extent Plaintiff attempted to plead in her state-court complaint a public policy claim
separate from her whistleblower claim, the Court agrees with Defendants’ assertion in their reply
brief that Plaintiff has since abandoned such claim (ECF No. 46 at PageID.732). The Sixth
Circuit’s jurisprudence on abandonment of claims is clear: “a plaintiff is deemed to have
abandoned a claim when a plaintiff fails to address it in response to a motion for summary
judgment.” Brown v. VHS of Mich., Inc., 545 F. App’x 368, 372 (6th Cir. 2013) (collecting cases).
Even assuming arguendo that such claim still merits analysis, the Court determines that the
claim is properly dismissed. As an at-will employee, Plaintiff could be fired “at any time for any,
or no, reason,” Suchodolski v. Michigan Consol. Gas Co., 316 N.W.2d 710, 711 (Mich. 1982),
unless that reason was in violation of public policy or other federal or state law. “[U]nder Michigan
law, ‘[a] public policy claim is sustainable ... only where there also is not an applicable statutory
prohibition against discharge in retaliation for the conduct at issue.’” Allen v. Charter Cty. of
Wayne, 192 F. App’x 347, 353 (6th Cir. 2006) (citation omitted). “Where a statute specifically
proscribes the conduct at issue, ‘Michigan courts have consistently denied a public policy claim.’”
Id. See also Lewandowski v. Nuclear Mgt., 724 N.W.2d 718, 723 (Mich. Ct. App. 2006) (“[A]n
employee has no common-law right to avoid termination when he or she reports an employer’s
violation of the law. In other words, a public-policy claim may only be sustained if there is no
applicable statute prohibiting retaliatory discharge for the conduct at issue.”) (citations omitted).
Because Michigan’s whistleblower statute specifically prevents employers from retaliating against
employees who report, or intend to report, violations of law to the authorities, see infra, Plaintiff’s
public policy claim on this same basis is preempted.

9

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.766 Filed 07/13/20 Page 10 of 16

3.

Plaintiff’s Claim Under Michigan’s Whistleblowers Protection Act
Defendants argue that Plaintiff’s whistleblower claim should be dismissed where her

internal requests for investigations do not constitute a report of a violation or suspected violation
of a law to a public body (ECF No. 41 at PageID.303). Similarly, Defendants argue that Plaintiff’s
informal discussion with an individual who was not her attorney regarding WLNS decisions is not
a report to a public body as construed by the state statute (id. at PageID.303-304). Defendants also
argue that there is no admissible evidence in this record that Defendants knew of her
communication with the attorney (id. at PageID.305). Last, Defendants argue that Plaintiff has
not established a causal connection between her activities and her discharge and cannot establish
that Defendants’ articulated legitimate, non-retaliatory rationale to discharge is pretext (id. at
PageID.305-306). Defendants opine that the record instead clearly establishes Plaintiff’s record
of “creating a divisive and unprofessional working environment and that Defendants took
extraordinary steps to save the working relationship between Sardar and Fritze—and thus Fritze’s
job” (id. at PageID.306).
In response, Plaintiff argues that she has pled and supported a viable whistleblower claim
where she was (1) “discovering and exposing ineffective and non[-]investigating of sexual
harassment by Defendant Nexstar,” and (2) “communicat[ing] with attorney David Mittleman,”
communications about which she ensured Sook and Nexstar leadership were aware (ECF No. 44
at PageID.607-608). According to Plaintiff, she has established a “clear causal connection
between her intent to report sexual harassment at Nexstar (including Nexstar’s laxity in
investigating these types of allegations) and Nexstar’s decision to discharge her to avoid any
complication in its 7.2 billion dollar acquisition of the Tribune stations” (id. at PageID.608-610).

10

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.767 Filed 07/13/20 Page 11 of 16

In reply, Defendants opine that Plaintiff’s “tortured effort” to save her whistleblower claim
relies almost exclusively on “distortions of the record, self-serving speculation, hearsay, and
purported ‘facts’ that are unsubstantiated by citation to competent evidence of record” (ECF No.
46 at PageID.731).
Defendants’ argument for dismissal of Plaintiff’s whistleblower claim has merit.
Michigan’s Whistleblower Protection Act (WPA) prohibits employers from discriminating
against an employee “because the employee… reports or is about to report, verbally or in writing,
a violation or a suspected violation of a law or regulation or rule… to a public body…” MICH.
COMP. LAWS § 15.362. Under the WPA, “public body” means all of the following:
(i) A state officer, employee, agency, department, division, bureau, board,
commission, council, authority, or other body in the executive branch of state
government.
(ii) An agency, board, commission, council, member, or employee of the legislative
branch of state government.
(iii) A county, city, township, village, intercounty, intercity, or regional governing
body, a council, school district, special district, or municipal corporation, or a
board, department, commission, council, agency, or any member or employee
thereof.
(iv) Any other body which is created by state or local authority or which is primarily
funded by or through state or local authority, or any member or employee of that
body.
(v) A law enforcement agency or any member or employee of a law enforcement
agency.
(vi) The judiciary and any member or employee of the judiciary.
MICH. COMP. LAWS § 15.361(d).
Michigan courts have identified the following three elements a plaintiff must establish to
carry her burden of making a prima facie case for retaliation under the WPA:
(1) The employee was engaged in one of the protected activities listed in the
provision.
11

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.768 Filed 07/13/20 Page 12 of 16

(2) [T]he employee was discharged, threatened, or otherwise discriminated against
regarding his or her compensation, terms, conditions, location, or privileges of
employment.
(3) A causal connection exists between the employee’s protected activity and the
employer’s act of discharging, threatening, or otherwise discriminating against the
employee.
Rivera v. SVRC Indus., Inc., 934 N.W.2d 286, 293 (Mich. Ct. App. 2019) (quoting Wurtz v.
Beecher Metro Dist., 848 N.W.2d 121, 125-26 (Mich. 2014)).
“[W]hen a plaintiff presents circumstantial evidence of retaliation, the burden then shifts
to the defendant to rebut the presumption of a causal connection by articulating a legitimate
business reason for its adverse employment action.” Rivera, supra. If the defendant offers such a
reason, then the burden shifts back to the plaintiff to show that a genuine issue of material fact still
exists by showing that “‘a reasonable fact-finder could still conclude that the plaintiff’s protected
activity was a motivating factor for the employer’s adverse action,’ i.e., that the employer’s
articulated legitimate reason was a pretext disguising unlawful animus.” Id. (quoting DebanoGriffin v. Lake Co., 828 N.W.2d 634, 638 (Mich. 2013) (citations omitted)).
The determination whether evidence establishes a prima facie case under the WPA is a
question of law. Roulston v. Tendercare (Michigan), Inc., 608 N.W.2d 525, 529 (Mich. Ct. App.
2000). The Court determines that Plaintiff’s claim fails at the outset because she has not
established the first prong of a prima facie case for retaliation under Michigan’s whistleblower
statute. And “one who engages in no ‘protected activity’ under the act is not intended to benefit
from its operation.” Chandler v. Dowell Schlumberger Inc., 572 N.W.2d 210, 215 (Mich. 1998).
Again, as purported protected activity under the whistleblower statute, Plaintiff relies on
her activity (1) “discovering and exposing ineffective and non[-]investigating of sexual harassment
by Defendant Nexstar” and (2) “communicating” with attorney Mittleman about Defendants’
investigations. The effectiveness or quality of Defendants’ investigations, does not, as a threshold
12

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.769 Filed 07/13/20 Page 13 of 16

matter, concern “violations of law” that would support a whistleblower claim. Reports of an
employer’s alleged mismanagement or failures to follow provisions in a personnel handbook are
not reports of “violations of law.” The Michigan Supreme Court has held that “a corporate
management dispute … lacks the kind of violation of a clearly mandated public policy that would
support an action for retaliatory discharge.” Suchodolski, 316 N.W.2d at 712 (affirming summary
judgment for the employer where the plaintiff-employee alleged that his complaints about his
employer’s internal accounting practices, which related to matters that could have interfered with
the Public Service Commission’s ability to perform its regulatory functions, led to his discharge).
See, e.g., Brooks v. Genesee Cty., No. 330119, 2017 WL 2988838, at *3 (Mich. Ct. App. July 13,
2017) (holding that an employee’s “disagreement” with and violations of his employer’s policy
prohibiting discussion of a criminal investigation “do not constitute reports to a public body of
violations or suspected violations of law” under Michigan’s whistleblower statute); Cuevas v. Bd.
of Hosp. Managers of Hurley Med. Ctr., No. 329589, 2017 WL 127737, at *5 (Mich. Ct. App. Jan.
12, 2017) (holding that the plaintiff failed to demonstrate that she engaged in a protected activity
to establish the first element for a prima facie case of retaliation under the WPA where she
complained of her employer’s mishandling or failure to comply with an internal operating
procedure for the scanning of documents). See also Melchi v. Burns Int’l Sec. Servs., Inc., 597 F.
Supp. 575, 584 (E.D. Mich. 1984) (holding that the plaintiff’s allegations concerning his former
employer’s management practices did not support an action for retaliatory discharge under
Michigan’s whistleblower statute).
Indeed, as Defendants point out, Plaintiff’s internal efforts often resulted in additional
investigation and/or actions, e.g., the departure of a news anchor and the removal of a social media
post. See, e.g., Oakes v. Weaver, 331 F. Supp. 3d 726, 747-48 (E.D. Mich. 2018) (holding that the

13

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.770 Filed 07/13/20 Page 14 of 16

plaintiff’s communications detailing her numerous concerns about actions by the mayor and
various associates or advisors were not “reports” of any violations of law under Michigan’s
whistleblower statute “but merely advice that was intended to—and did—prevent violations of the
law by the responsible officials”) (emphasis in original). Cf. Mortimer v. Alpena Cty. Prob. Court,
No. 304863, 2012 WL 3322401, at *3 (Mich. Ct. App. Aug. 14, 2012) (holding that the plaintiff
did not engage in a protected activity pursuant to the WPA where “an incorrect legal interpretation
of the law is not itself a violation of the law”). In sum, as a matter of Michigan law, Plaintiff’s
reports of Defendants’ alleged failure to perform adequate investigations into sexual harassment
in the workplace do not concern “violations of law.”
However, even assuming arguendo that Plaintiff’s reports constitute reports of “violations
of law” within the meaning of Michigan’s whistleblower statute, Plaintiff’s reports to her employer
are not protected activity. Defendants are private corporations, not “public bodies,” as defined in
the state statute. “There is no provision within the plain language of the statutory definition of
‘public body’ that includes employees of private companies.” Denney v. Dow Chem. Co., No.
294278, 2011 WL 92964, at *5 (Mich. Ct. App. Jan. 11, 2011). And “[n]othing will be read into
a clear statute that is not within the manifest intention of the Legislature as derived from the
language of the statute itself.”

Id.

A plaintiff’s communication with her employer is a

“nonactionable communication.” Rivera, 934 N.W.2d at 297. Therefore, Plaintiff’s internal
reporting to her private employer is not “protected activity” under the whistleblower statute, even
assuming the topic of such reports comes within the purview of the statute.
Similarly, Plaintiff has not established, on this record, that her meeting with Mittleman
constitutes a report to a public body. Michigan courts have held that while a licensed and
practicing member in good standing of the State Bar of Michigan is a member of a “public body”

14

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.771 Filed 07/13/20 Page 15 of 16

for purposes of the whistleblower statute, McNeill-Marks v. MidMich. Med. Ctr., 891 N.W.2d 528,
539 (Mich. Ct. App. 2016), not “all communications with attorneys, no matter who they represent,
categorically constitute ‘reports’ to a ‘public body’ for WPA purposes,” McNeill-Marks v.
MidMichigan Med. Ctr.-Gratiot, No. 348987, 2020 WL 2610106, at *10 (Mich. Ct. App. May 21,
2020).

Rather, when a person claims whistleblower status based on an allegation that a

communication with an attorney constituted a “report,” “trial courts must engage in a deeper
analysis of the particular facts and circumstances of the communication.” McNeill-Marks, 2020
WL 2610106, at *10.
For example, in Newton v. Mariners Inn, No. 332498, 2017 WL 5759949, at *22-23 (Mich.
Ct. App. Nov. 28, 2017), lv. den. 915 N.W.2d 459 (Mich. July 27, 2018), where the plaintiff
asserted that she had made a report to a “public body” when she met with an attorney and two
others, the Michigan Court of Appeals determined that the assertion did not have “support in the
record” where there was no evidence of either an “attorney-client relationship” or the performance
of “specific legal work.” The Michigan Court of Appeals ultimately dismissed the plaintiff’s
whistleblower claim. This Court likewise concludes that Plaintiff’s single meeting with Mittleman
in this case, a meeting that did not culminate in Plaintiff retaining Mittleman’s services or his
performance of specific legal work, does not, under Michigan law, constitute a report of a violation
of the law to a public body.
In sum, Plaintiff has simply not established that she falls within the protection of
Michigan’s whistleblower statute. Because she has not set forth a prima facie case, the Court need
not address whether there was a legitimate business reason for her discharge or whether such
reason was a pretext. Defendants are entitled to prevail as a matter of law on Plaintiff’s WPA
claim.

15

Case 1:18-cv-01313-JTN-SJB ECF No. 50, PageID.772 Filed 07/13/20 Page 16 of 16

III.

CONCLUSION

For the foregoing reasons,
IT IS HEREBY ORDERED that Defendants’ Motion for Summary Judgment (ECF No.
40) is GRANTED.
Because this Opinion and Order resolves all pending claims in this case, a corresponding
Judgment will enter. See FED. R. CIV. P. 58.
/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

Dated: July 13, 2020

16

